BBOK VISA CLASSIC
CARDHOLDER AGREEMENT
Effective May 1, 2021
1. In this agreement “you” and “your” refer to the customer
and means each person who has signed an application for
a Bankers’ Bank of Kansas, (BBOK) account, whether as an
individual user or as a joint user. “You” and “your” also refer to
the customer who has signed a BBOK card or a VISA sales draft
or cash advance request as an authorized signer. “We”, “us”,
“our” and “Bank” refer to Bankers’ Bank of Kansas, P.O. Box
20810, Wichita, KS 67208-6810. “Card” means any VISA Card(s)
issued to you by us, or other single credit device being used
from time to time upon presentation to obtain money, property
or services on credit; “Card” is implied when you obtain credit
by using your account number without using the Card. If more
than one person has signed the application for an account, this
agreement applies equally to each authorized signer.
2. You agree that this agreement is entered into at Wichita,
Sedgwick County, Kansas, and credit card(s) are issued based
on our acceptance of your application at our principal place of
business there.
3. This agreement governs any account for which you are
liable now or in the future. By signing your card or using your
account, or allowing someone else, you accept the terms of this
agreement.
4. You agree to sign your card immediately upon receipt. If you
fail to do so, and your card becomes lost or stolen, you may be
liable for any fraudulent activity, if it is determined that you were
grossly negligent in the handling of the account or card.
5. We issue credit card(s) at your request for your use alone
but they are our property. We may renew your card(s) from
time to time. We may cancel or revoke credit privileges at any
time without changing your liability for credit we have already
extended you. You agree to deliver at our demand the cards
bearing your account number to us or to our agent. We may
issue you a different card(s) at any time.
6. You authorize us to charge to your account all purchases
obtained with your account number. We agree to advance
amounts necessary to pay for all purchases and advances,
provided you are not over your credit line, past due or in default
and you abide by the terms of this agreement.
7. You promise to pay in U.S. Dollars, as this agreement requires,
for all authorized credit with is incurred with your account
number or with the card(s) you requested. You also promise to
pay all finance charges and other charges connected with your
credit.
8. You agree that “authorized use” means any purchase, cash
advance, mail order or other credit incurred through the use of
your credit card(s) and/or your account number, whether such
use is by you or by any other person who is allowed to use the
card or account number by you, regardless of the benefit or use.
You agree that your card (s) shall not be used for any illegal
purpose or transaction.
9. You agree to pay us within 25 days from the “Closing
Date” shown on each monthly statement, either (a) the “New
Balance” or (b) a part of the New Balance not less than the
“Minimum Payment Due” that we have calculated according
to the current minimum periodic payment schedule. The
schedule we use follows:

A. The minimum payment required is the New Balance shown
on your statement if the amount is equal to or less than $25.00.
B. If the New Balance exceeds $25.00, the minimum payment
is 1% (percent) of the New Balance (rounded up to the nearest
dollar) plus any cycle to date FINANCE CHARGES and the
unpaid late fees. The Total Minimum Payment will include the
Minimum Payment calculated above, plus any amount in excess
of your credit limit and any amount past due.
Checks should be made payable to VISA. Only checks payable
to VISA will be accepted for payment. Checks you have received
from another party should not be endorsed over to VISA. That is,
BBOK will not serve as a second endorser.
From time to time, if your account qualifies, we may allow you
to skip your minimum periodic payment during a billing cycle. If
you skip a payment, finance charges will continue to be due in
the month following the month in which you skip the payment.
10. A FINANCE CHARGE will be imposed on your account under
the following conditions:
A. PURCHASES A Finance Charge will be imposed on Credit
Purchases only if you do not pay the entire New Balance shown
on your monthly statement for the previous billing cycle within
25 days from the closing date of that statement. If you elect not
to pay the entire New Balance shown on your previous monthly
statement within that 25 day period, a Finance Charge will
be imposed on the unpaid average daily balance of such Credit
Purchases from the previous statement closing date and on new
Credit Purchases from the date of transaction to your account
during the current billing cycle, and will continue to accrue until
the closing date of the billing cycle preceding the date on which
the entire New Balance is paid in full or until the date of payment
if more than 25 days from the closing date.
B. CASH ADVANCES/CASH EQUIVALENTS
A Finance Charge will be imposed on Cash Advances from the
date made and will continue to accrue on the unpaid average
daily balance of such Cash Advances until the date of payment if
paid during the same billing cycle, or until the closing date of the
billing cycle preceding the date on which the entire New Balance
is paid in full or until the date of payment if more than 25 days
from the closing date.
Cash Equivalents that will be treated as cash: Wire transfers,
court filings, purchase of travelers checks, money orders,
foreign currency, lottery tickets or gaming chips, placing wagers
(if legal), or to make tax or similar payments.
The Finance Charge for a billing cycle is computed by applying
the Monthly Periodic Rate to the average daily balance of Cash
Advances, which is determined by dividing the sum of the
daily balances by the number of days in the billing cycle. Each
daily balance of Cash Advances is determined by adding to the
outstanding unpaid balance of Cash Advances at the beginning
of the billing cycle any new Cash Advances posted to your
account, and subtracting any payments as received or credits
as posted to your account, but excluding any unpaid Finance
Charges.
11. INTEREST RATE
A. PURCHASES
If your account is subject to a Finance Charge, your ANNUAL
PERCENTAGE RATE may vary. Your Rate on purchases is

determined by adding 8.42% to the “Prime Rate” published in the
Wall Street Journal under the “Money Rates” subsection on the
last business day of each month.
The Finance Charge for a billing cycle is computed by applying
the Monthly Periodic Rate to the average daily balance of Credit
Purchases, which is determined by dividing the sum of the daily
balances during the billing cycle by the number of days in the
cycle. Each daily balance of Credit Purchases is determined by
adding to the outstanding unpaid balance of Credit Purchases
at the beginning of the billing cycle any new Credit Purchases
posted to your account, and subtracting any payments as
received or credits as posted to your account, but excluding any
unpaid Finance Charges.
B. CASH ADVANCES If your account is subject to a Finance
Charge, a transaction fee of $10.00 or 3% of the Cash Advance
amount, whichever is greater, will be imposed for each Cash
Advance posted to your account during a billing cycle. We will
compute the Finance Charge on a Cash Advance by applying
a “Monthly Periodic Rate” of 1.75% per month (which is a
corresponding ANNUAL PERCENTAGE RATE of 21% as follows:
The Finance Charge for a billing cycle is computed by applying
the monthly Periodic Rate to the average daily balance of Cash
Advances, which is determined by dividing the sum of the
daily balances by the number of days in the billing cycle. Each
daily balance of Cash Advances is determined by adding to the
outstanding unpaid balance of Cash Advances at the beginning of
the billing cycle any new Cash Advances posted to your account,
and subtracting any payments as received or credits as posted to
your account, but excluding any unpaid Finance Charges.
12. OTHER CHARGES – In addition to the Finance Charge, you
agree to pay the bank the following fees and charges:
A. LATE PAYMENT FEE
If you do not pay the Minimum Payment by the Due Date of the
billing cycle in which the payment was due, a late payment charge
of up to $29.00 will be imposed on your account.
B. RETURN CHECK FEE
We will assess a return check charge of up to $29.00 for any
check or other form of negotiable instrument which is presented
for payment on the account and which is subsequently returned
not paid.
C. INTERNATIONAL TRANSACTION FEE
International transactions are subject to a fee by Issuer, of 3%
of the U.S. dollar amount of the transaction and will apply to any
cross-border transaction where the licensed VISA merchant and
Issuer are located in different countries.
D. DOCUMENTATION CHARGES
You may be assessed a charge for copies you request of a
document (sales draft, cash advance draft, credit voucher) plus
research time; copies of statements which were mailed to you; and
any other pass-through fees assessed to us by VISA in connection
with your account. No charge will be imposed in connection with
any good faith assertion of a billing error on your account.
E. All costs of collections including reasonable attorney fees as
further noted in paragraph 25 herein.

F. ATM USAGE FEE
A fee may be imposed by an ATM operator not holding the
consumer’s account, or by any national, regional, or local network
used to complete the transaction. Automated teller machine
operator means any person that operates an automated teller
machine at which a consumer initiates an electronic fund transfer
or a balance inquiry and does not hold an account to or from which
the transfer was made, or about which an inquiry is made.
13. Effective October 3, 2017, Federal law provides important
protections to members of the Armed Forces and their dependents
relating to extensions of consumer credit. In general, the cost
of consumer credit to a member of the Armed Forces and his
or her dependent may not exceed an annual percentage rate
of 36 percent. This rate must include, as applicable to the credit
transaction or account: The costs associated with credit insurance
premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain
application fees for specified credit transactions or accounts);
and any participation fee charged (other than certain participation
fees for a credit card account). Call 1-888-675-6332 for recorded
information.
14. PAYMENTS AND CREDITS will generally be applied to
amounts outstanding at the time the payment or credit is received
in the following order:
-Cash Advance Finance Charges
-Purchase Finance Charges
-Late Fees
-Annual Fees
-Cash Advance Accruing Balances (oldest balance is paid first)
-Purchase Accruing Balances (oldest balance is paid first)
-Non-Accruing Balances
15. We agree at no cost to provide you and your spouse and
dependent children with up to $150,000 of insurance for
accidental death or dismemberment whenever you travel on
a common carrier if you buy your travel tickets with your VISA
Classic Card. A description of insurance terms and conditions
will be provided.
16. We set your credit line when we open your account, and we may
change it from time to time. Your credit line will appear on each
monthly statement. We may limit your total Cash Advances to a
portion of your total credit limit. You agree not to incur, or to let
others incur, charges on your account that exceed your credit line.
If the total charges do exceed the credit line, you agree, when we
request, to make a payment to reduce the total on your account to
an amount below your credit line.
17. If you revoke the authority of someone to use your account,
revocation is not effective until that person’s card expires or you
return it to us, whichever is first; provided, however, each joint user
agrees to pay all amounts due us for charges made by any joint
user until all cards are returned to us and the balances are paid
in full.
18. You agree to notify us promptly by telephone of the loss or theft
of any credit card bearing your account number. You may notify
us by telephone at (866) 839-3485. You will not be liable for
any unauthorized use, unless we determine, based on substantial
evidence, that you were grossly negligent in the handling of the
account or card.

19. You agree that “unauthorized use” means the use of a credit
card which has occurred or may occur as the result of loss, theft or
other wrongdoing, and which is by a person other than you or your
agent, who does not have actual, implied or apparent authority for
such use, and from which you receive no benefit.
20. We are not accountable if anyone refuses to honor a credit
card with your account number. All Credit Purchases and Cash
Advances are effected at the option of the Merchant and Cash
Advancing Bank, respectively, and Issuer shall not be responsible
for refusal by any Merchant or Cash Advancing Bank to honor
the Card or any Related Card. Any refund, adjustment or credit
allowed by Merchant shall not be by cash but rather by a credit
advice to Issuer which shall be shown as a credit on Cardholder’s
account statement with Issuer.
21. You agree to advise us promptly if you change your mailing
address. We can accept address corrections from the U.S. Postal
Service. All written notices and statements from us to you will be
sent to your address as it appears on our records.
22. We will consider your account past due if you fail to pay at least
your minimum payment in funds acceptable to us by the date it is
due. You account will remain past due until any previous unpaid
balance is paid.
23. We can consider you in default if you provide us with false
information or signature, if you try to exceed or do exceed your
credit line without our permission, if you fail to provide updated
information which we request from time to time, if you become
subject to bankruptcy or insolvency proceedings, if attachment
or garnishment proceedings are instituted against you or your
property, if there is any event which we believe causes the prospect
of payment to be significantly impaired, if you fail to comply with
any provision of this agreement or in the event of death. Default
on any account with us will constitute default on all accounts with
us. Upon default, at our option and under applicable law, we can
declare all amounts on your account immediately due and payable.
Also, we can exercise all rights available to us under law to collect
what you owe us. All remedies are cumulative and our failure to
exercise any one shall not affect our rights to any other remedy.
24. If Bank incurs collection costs or attorney fees in connection
with your account, as permitted by applicable law, you agree to
pay the reasonable costs of collection, including, but not limited
to, attorney fees and collection fees in an amount not to exceed
15% of the unpaid debt on your account if such limitation is
required by law.
25. If you make a payment with a check, money order, or other
type of instrument marked “Payment in Full” or other language
indicating satisfaction of indebtedness, we are not bound by such
language and do not waive any rights under this agreement. Where
full payment of any indebtedness owing under this agreement is
not made, satisfaction of indebtedness shall occur only pursuant
to a written agreement, signed by an authorized employee of the
Bank.
Communications regarding disputed balances must be sent
to:
Customer Service, P.O. Box 30495, Tampa, FL 33630.

26. Payments must be made to Issuer in U.S. dollars drawn on
a U.S. bank. If the authorized signer incurs charges in any other
currency, the charges will be converted into U.S. dollars.
VISA – The exchange rate between the transaction currency and
the billing currency used for processing international transactions
is:

Your Rights and Our Responsibilities After We Receive
Your Written Notice
We must acknowledge your letter within 30 days, unless we have
corrected the error by then. Within 90 days, we must either correct
the error or explain why we believe the bill was correct.

- The government-mandated rate in effect for the applicable central
processing date.

After we receive your letter, we cannot try to collect any amount
you question, or report you as delinquent. We can continue to
bill you for the amount you question, including finance charges,
and we can apply any unpaid amount against your credit line.
You do not have to pay any questioned amount while we are
investigating, but you are still obligated to pay the parts of your
bill that are not in question.

27. We can change the terms of this agreement including changing
the periodic rate and the annual percentage rate on the existing
balance of your account to the maximum rate allowed by law, even
if that maximum rate increases after the date of this agreement. We
will, of course, comply with applicable law about notice to you if
we make any changes.

If we find that we made a mistake on your bill, you will not have to
pay any finance charges related to any questioned amount. If we
did not make a mistake, you will have to pay finance charges, and
the balance will be due and payable in full upon receipt of your
next billing statement. In either case, we will send you a statement
of the amount you owe and the date that it is due.

28. We can waive, or choose not to enforce, any of our rights under
this agreement at any time, without the waiver affecting any of our
other rights. A waiver on one occasion will not act as a waiver of
the same right at a future time.

If you fail to pay the amount that we think you owe, we may report
you as delinquent. However, if our explanation does not satisfy
you and you write to us within 10 days telling us that you still
refuse to pay, we must tell anyone we report you to that you have
a question about your bill. And, we must tell you the name of
anyone we reported you to. We must tell anyone we report you
to that the matter has been settled between us when it finally is.

- A rate selected by VISA from the range of rates available in
wholesale currency markets for the applicable central processing
date, which rate may vary from the rate VISA itself receives, or

29. We may sell, assign or transfer your Account or any portion
thereof, without notice to you. You may not sell, assign or transfer
your Account without first obtaining our prior written consent.
30. From time to time we may monitor telephone calls between you
and us to assure the quality of our customer service.
31. We both agree that this agreement is governed by the laws of
Kansas except to the extent that federal law applies.
YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about your rights and
our responsibilities under the Fair Credit Billing Act.
Notify us in Case of Errors or Questions About Your Bill
If you think your bill is wrong, or if you need more information
about a transaction on your bill, write us on a separate sheet of
paper at the address listed on your bill. Write to us as soon as
possible. We must hear from you no later than 60 days after we
sent you the first bill on which the error or problem appeared. You
can telephone us, but doing so will not preserve your rights.
In your letter, give us the following information:
-Your name and account number.
-The dollar amount of the suspected error.
-Describe the error and explain, if you can, why you believe there
is an error. If you need more information, describe the item you
are not sure about.
If you have authorized us to pay your credit card bill automatically
from your checking or savings account, you can stop the payment
on any amount you think is wrong. To stop the payment your letter
must reach us three business days before the automatic payment
is scheduled to occur.

If we do not follow these rules we cannot collect the first $50.00 of
the questioned amount, even if your bill was correct.

Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

APR will vary with the market based on the Prime Rate. See
“Interest Rate” section of this agreement for more details.

APR for Balance Transfers

Same as Purchase Rate

APR for Cash Advance

21%

Paying Interest
		
Your due date is at least 25 days after

the close of each billing cycle. We will not charge you
interest on purchases if you pay your entire balance by the
due date each month. We will begin charging interest on
cash advances on the transaction date.

Fees
Annual Fee

None

Balance Transfer Fee

None

Cash Advance Fee

$10.00 or 3% of the
Cash Advance amount,
whichever is greater.

International
Transaction Fee

3% of the U.S. dollar
amount of the transaction

Late Payment

Up to $29

Returned Payment

Up to $29

Special Rule for Credit Card Purchases
If you have a problem with the quality of property or services that
you purchased with a credit card, and you have tried in good faith
to correct the problem with the merchant, you may have the right
not to pay the remaining amount due on the property or services.
There are two limitations on this right:
You must have made the purchase in your home state or, if not
within your home state, within 100 miles of your current mailing
address; and
The purchase price must have been more than $50.00.
These limitations do not apply if we own or operate the merchant,
or if we mailed you the advertisement for the property or services.

11.67%

Billing rights: Information on your rights to dispute
transactions and how to exercise those rights is
provided in the Cardholder Agreement. See “Your
Billing Rights” section for more details.

To learn more about factors to consider when
applying for or using a credit card, visit the website
of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Classic 5/1/21

